                                                         IG-02-002




AUDIT
                           RESTRUCTURING OF THE INTERNATIONAL
REPORT                           SPACE STATION CONTRACT

                                      November 8, 2001




                                OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

     Assistant Inspector General for Audits
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to
the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

DCAA       Defense Contract Audit Agency
FAR        Federal Acquisition Regulation
FY         Fiscal Year
GAO        General Accounting Office
ISS        International Space Station
RFEA       Request for Equitable Adjustment
W                                                                                   November 8, 2001


TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Audit of Restructuring of the International Space
                  Station Contract
                  Report Number IG-02-002


The NASA Office of Inspector General has completed an audit of the Restructuring of
the International Space Station (ISS) Contract. We found that NASA did not sufficiently
justify the restructuring of the ISS contract. Specifically, Johnson Space Center
(Johnson) settled The Boeing Company’s (Boeing’s) requests for equitable adjustments1
(RFEA’s) and other potential claims without performing a sufficient analysis to show that
Boeing’s proposed costs were fair and reasonable. Also, Johnson did not adequately
support the justification it prepared for waiving the Federal Acquisition Regulation
(FAR) requirement for the contractor to submit certified cost or pricing data.2 As a
result, NASA has little assurance that Boeing did not overstate the value of RFEA’s and
potential claims totaling $404 million. In addition, the NASA Office of Procurement did
not exercise adequate oversight of the restructuring, even though this was one of the most
significant noncompetitive awards in fiscal year (FY) 2000. As a result, the Office of
Procurement did not know that Johnson had not performed cost or price analyses of the
RFEA's.

Also, Johnson inappropriately modified the fee structure of the ISS contract by
eliminating the Agency's option to recoup provisional fees paid to Boeing if the
contractor's technical and cost performance is ultimately unsatisfactory. As a result,
NASA could pay Boeing as much as $69.4 million in fees3 even if the Agency's final
evaluation of the contractor's on-orbit performance is unsatisfactory.


1
  A request for equitable adjustment occurs when the Government’s conduct results in a change to the
contract as alleged by the contractor, causing an increase or decrease in the contractor's cost of, or the time
required for, performance of any part of the work under the contract.
2
  FAR 15.401 defines cost or pricing data as all facts that, as of the date of price agreement, prudent buyers
and sellers would reasonably expect to affect price negotiations significantly. Cost or pricing data are
factual, not judgmental, and are verifiable.
3
  The fee pool was $69.4 million as of October 19, 2001, but the pool will increase as NASA definitizes
work on the contract.
                                                                                                      2

Background

In December 1999, Johnson and Boeing restructured the ISS contract. The purpose of
this restructuring was to definitize a global settlement on 38 RFEA issues and other
potential claims valued at more than $404 million, change the contract type, and address
other contract actions. Johnson claimed these changes would facilitate and provide an
incentive for efficient, high quality performance for the remaining work under the
contract.

This restructuring also created two new award fee pools and a base fee pool relative to
on-ground contract changes definitized or authorized after October 1, 1999. The fee
pools relate to technical performance, cost performance, and base fee. Unlike the on-
ground award fee pool for the original contract, the new pools are not subject to
repayment provisions.4

Recommendations

We recommended that Johnson perform an adequate price analysis and properly support
justifications for waivers on future modifications of the ISS contract and that the Office
of Procurement perform adequate oversight of major procurement actions for the ISS
contract. These actions would ensure that NASA has a sound basis for negotiating as
much as $330 million of future claims by Boeing and that NASA follows procurement
regulations for major procurement actions. We also recommended that Johnson ensure
that the fee pools for the ISS contract are measurable and consistent with Agency criteria
or obtain a waiver for not doing so. This action would ensure that Johnson does not
violate procurement regulations by paying Boeing as much as $69.4 million in fees for
cost performance that cannot be measured and for unsatisfactory technical performance
on orbit.

Management’s Response

Although we provided Johnson with a working copy of the draft report in May, Johnson
decided not to discuss it with us. Also, Johnson did not respond to our offer to discuss
the draft report after we issued it in August. Johnson last met with us to discuss our
findings in March. Nonetheless, we believe we have fairly presented Johnson's positions
in this report and have modified the report where appropriate.

Johnson did not concur with the recommendations. Johnson stated it followed applicable
regulations and policies during the restructuring activity. Johnson also stated that the



4
 The original contract fee provisions included a negative performance incentive in the on-orbit
performance evaluation whereby a poor on-orbit performance could cause a repayment of any on-ground
award fee provisionally earned by Boeing.
                                                                                           3

revisions to the fee structure did not give up existing rights with regard to on-orbit
performance. The only thing the restructuring did was limit the maximum possible fee
loss, due to on-orbit performance, to $202 million.

In contrast to Johnson, the Office of Procurement concurred with the recommendation.
While acknowledging that more rigorous adherence to the established Master Buy Plan
procedures would have been appropriate in managing changes to the ISS program, the
Office of Procurement maintained that sufficient insight into those changes was afforded
by the ongoing communications between the Center ISS procurement personnel and
procurement analysts responsible for the ISS Program within the Office of Procurement.
Therefore, the Office of Procurement was confident that Johnson performed sufficient
analyses, albeit not traditional cost or price analyses, of the RFEA's and related fee
adjustment to assure an equitable settlement between Boeing and NASA.

OIG Evaluation of Management’s Response

Johnson’s comments are not responsive to either the findings or the recommendations.
While the restructuring may have facilitated the Program’s ability to focus on the
challenging work ahead, Johnson could not provide analytical support for its statement
that the global settlement avoided significant costs associated with individual proposal
settlements. Consequently, there is no assurance NASA received a fair and reasonable
price for the RFEA’s or saved costs on the global settlement.

Johnson wanted a fee structure that would positively motivate future cost performance
and offer an opportunity for the contractor to earn a fair return for high quality, cost-
efficient performance for future work on this challenging contract. Unfortunately, the
new fee structure eliminated all negative incentive after the restructuring by not requiring
provisional fees to be repaid to NASA for hardware failures on orbit. Such an
arrangement does not protect the Government's interests. Also, Johnson claims that the
new structure allows for Boeing to potentially lose more fee for poor performance.
However, that outcome is improbable because unlike the incentive fee evaluations, which
were objective and directly affected by overruns, the award fee evaluations are
subjective.

Because Johnson has not changed its position since we discussed the findings with
management in March, we believe that requesting additional comments will not be
productive. Therefore, we will forward the recommendations to the NASA Audit
Followup Official for final resolution.


[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Restructuring of the International Space Station Contract
RESTRUCTURING OF THE INTERNATIONAL
      SPACE STATION CONTRACT
W                                                                 November 8, 2001


TO:           H/Associate Administrator for Procurement
              M/Associate Administrator for Space Flight
              AA/Acting Director, Lyndon B. Johnson Space Center

FROM:         W/Assistant Inspector General for Audits

SUBJECT:      Final Report on Audit of Restructuring of the International Space
               Station Contract
              Assignment Number A-00-055-00
              Report Number IG-02-002

The subject final report is provided for your use and comment. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response has
been incorporated into the body of the report. In response to management’s comments,
we revised draft recommendation 2, deleted draft recommendation 3, and renumbered
draft recommendation 4 as recommendation 3. In addition to revising the
recommendations, we modified appropriate sections of the report as necessary to be
consistent with the recommendations. We request management comments by January 7,
2002, on the revised recommendation. Please notify us when actions have been
completed on the recommendation, including the extent of testing performed to ensure
corrective actions are effective. The final report distribution is in Appendix I.

With respect to management’s nonconcurrence with recommendations 1 and 3, we are
forwarding the recommendations to the NASA Audit Followup Official for final
resolution. Recommendations 1 and 3 are unresolved and will remain open for reporting
purposes until final resolution.

If you have questions concerning the report, please contact Mr. Dennis E. Coldren,
Program Director, Space Flight Audits, at (281) 483-4773, or Mrs. Loretta Garza,
Auditor-in-Charge, at (281) 483-0483.


[original signed by]
Alan J. Lamoreaux
Enclosure
                                                     2

cc:
AI/Associate Deputy Administrator
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
Contents
Executive Summary, i

Introduction, 1

Findings and Recommendations, 2
     Finding A. Adequacy of Support for Global Settlement, 2

     Finding B. Oversight by NASA Office of Procurement, 8

     Finding C. Modification of ISS Contract Fee Structure, 11

Appendix A – Objectives, Scope, and Methodology, 16

Appendix B – International Space Station Contract, 18

Appendix C – Fee Structure of the International Space Station
             Contract, 20

Appendix D – Monetary Benefits, 22

Appendix E – Procurement Requirements, 24

Appendix F – Prior Audits and Other Reviews, 29

Appendix G – Management’s Response, 31

Appendix H – OIG Comments on Management’s Response, 41

Appendix I – Report Distribution, 45
                            NASA Office of Inspector General
IG-02-002                                                                           November 8, 2001
 A-00-055-00
                            Restructuring of the International
                                 Space Station Contract

                                       Executive Summary
Background. In January 1995, Johnson signed a $5.638 billion contract with Boeing for
the ISS.5 The original contract was a cost-plus-award fee/incentive fee/fixed fee contract
that included design, development, manufacture, integration, test, verification, and
delivery to NASA of the U.S. On-Orbit Segment,6 including ground support equipment
and support for ground and orbital operations. (Appendix B contains overall contract
details.)

During 1999, Boeing estimated the ISS contract overrun at $986 million.7 Because of the
large overrun, Boeing could not feasibly earn more than the minimum 2 percent incentive
fee for the remainder of the contract (December 31, 2003). (Appendix C contains details
on the fee structure of the contract.) However, Johnson wanted to keep the contractor
motivated to produce quality work for the ISS Program. Also, the contract statement of
work required revisions to reflect a shift in Program focus from development to
operations. In addition, there were other changes,8 ongoing negotiations, and likely target
cost increases. Therefore, in December 1999, Johnson and Boeing restructured the ISS
contract to reflect that the parties reached a global settlement of Boeing's RFEA’s, settled
the remaining overrun amount, reorganized the statement of work, and changed the
contract type to cost-plus-award fee/fixed fee.

Objectives. The overall objective was to evaluate NASA’s December 1999 restructuring
of the ISS contract. Specifically, we determined whether the global settlement of the
contractor’s RFEA’s was appropriately justified and executed and whether the fee
structure was appropriate. Appendix A contains a detailed description of our objectives,
scope, and methodology.




5
  NAS15-10000 is the contract number for the ISS prime contract with Boeing. The contract’s value was
$9.1 billion at the time of the restructuring modification, which was signed on December 21, 1999. As of
October 19, 2001, the contract value was more than $9.7 billion.
6
  The U.S. On-Orbit Segment of the ISS includes U.S. elements that have been deployed and that will be
deployed.
7
  As of March 2001, Boeing was still reporting an overrun of $986 million.
8
  The other changes included, for example, modified facilities requirements, failure of Node 1 struts to meet
pressure test requirements, and retention of critical skills for sustaining engineering.
Results of Audit. NASA did not sufficiently justify the restructuring of the ISS contract.
Specifically, regarding the global settlement of the RFEA’s, Johnson did not perform a
sufficient analysis to show that Boeing’s proposed costs were fair and reasonable and did
not adequately support the justification Johnson prepared for waiving the FAR
requirement for the contractor to submit certified cost or pricing data9 (Finding A).
Furthermore, the Office of Procurement did not exercise adequate oversight of the
restructuring, even though this was one of the most significant noncompetitive awards in
FY 2000 (Finding B). As a result, NASA has little assurance that the contractor did not
overstate the value of potential claims totaling $404 million.

Also, Johnson inappropriately modified the fee structure of the ISS contract by
eliminating the Agency's option to recoup provisional fees paid to Boeing if the
contractor's technical and cost performance is ultimately unsatisfactory. As a result,
NASA could pay Boeing as much as $69.4 million in fees10 even if the Agency's final
evaluation of the contractor's on-orbit performance is unsatisfactory (Finding C).

Other Matters of Interest. During our review of the contract fee structure, we found
errors in the on-orbit award fee calculations for Milestone Flight 2R. 11 The ISS
Contracting Officer acknowledged that ISS Program Office personnel performed the
calculations incorrectly and took appropriate action to correct the error by issuing a
contract modification. These errors could have resulted in an under-refund by Boeing of
about $1.4 million to NASA. The correction of the errors will preclude a future
overpayment of about $1.4 million to Boeing (see Appendix D).

Recommendations. Johnson should perform an adequate price analysis, properly
support justifications for waivers on future modifications of the ISS contract, and ensure
that the fee pools for the ISS contract are measurable and consistent with Agency criteria.
The Office of Procurement should perform adequate oversight of major procurement
actions for the ISS contract.

Management’s Response. Johnson nonconcurred with the recommendations to perform
a price or cost analysis with proper justifications on future ISS contract modifications and
to ensure that fee pools are measurable and consistent with Agency criteria. The Office
of Procurement concurred with the draft recommendation to establish procedures to
ensure adequate oversight but stated that its insight and Johnson's analysis were
sufficient. Management also provided general comments on our findings. The complete
text of management’s response is in Appendix G.

9
 FAR 15.401 defines cost or pricing data as all facts that, as of the date of price agreement, prudent buyers
and sellers would reasonably expect to affect price negotiations significantly. Cost or pricing data are
factual, not judgmental, and are verifiable.
10
   The fee pool was $69.4 million as of October 19, 2001, but the pool will increase as NASA definitizes
work on the contract.
11
   ISS Milestone Flight 2R, October 31, 2000, was the flight that carried the first long-term habitation crew
to the ISS. The launch vehicle was a Russian Soyuz rocket.


                                                      ii
Evaluation of Management's Response

We consider Johnson’s comments not responsive and maintain our position on the related
recommendations. Because we believe that requesting additional management comments
will not be productive,12 we will forward the recommendations to the NASA Audit
Followup Official for final resolution. Based on the Office of Procurement's comments,
we revised the recommendation regarding adequate oversight to focus on performing
adequate oversight rather than on establishing additional procedures. Therefore, we
request full management comments on the revised recommendation. Our additional
comments in response to management’s position on the findings are in Appendix H.




12
  Although we provided Johnson with a working copy of the draft report in May 2001, Johnson decided
not to discuss it with us. Also, Johnson did not respond to our offer to discuss the draft report after we
issued it in August 2001. Johnson last met with us to discuss our findings in March 2001.




                                                     iii
Introduction
As an integral part of the overall contract restructuring, Johnson settled all known
contractor RFEA issues as of October 1, 1999, except for specific exclusions identified in
contract clause H.67, “Requests for Equitable Adjustments.”13 As the basis for this
settlement, Johnson cited the avoidance of significant proposal costs and the cost of
technical and business resources that would have been incurred by Boeing and NASA if
each RFEA was submitted and settled separately. As a result, the Agency made no
attempt to establish a negotiation position for or reach cost and fee agreement on
individual issues. The FAR and NASA FAR Supplement require certified cost or pricing
data from the contractor unless, in exceptional circumstances, the Center Director signs a
waiver. Johnson issued a waiver for the submission of that data.14

Another integral part of the overall contract restructuring was a new fee arrangement. In
March 1999, Boeing announced that the estimated variance at completion was
$986 million. This variance meant that Boeing could earn only the minimum incentive
fee of 2 percent.15 Additionally, because of the cost incentive fee arrangement and the
$986 million estimated cost overrun, the earnings potential of any new work16 would
have been penalized by past poor performance. Therefore, NASA concluded that there
was no longer either a positive or negative incentive to control costs on existing work and
that it was important to improve Boeing’s cost performance. The prior award fee
provisions did not emphasize cost management because the incentive fee provisions
focused exclusively on cost. Therefore, NASA converted the previous incentive fee
provisions to a fixed fee at the 2-percent minimum and established award fee pools for
cost and technical management on new work added to the contract. NASA’s objective
was to improve cost management by enabling Boeing to earn a reasonable return on the
new work and not be further penalized by previous poor cost performance. Another
significant contract change in the restructuring involved eliminating NASA’s ability to
recoup award fee based on on-orbit performance. The restructured contract now enables
Boeing to earn up to 11 percent technical and cost award fees on new work added to the
contract.




13
   The contract clause identified the excluded potential RFEA’s as: Starboard Truss Segment 6
Refurbishment; multiple element integrated test impact; Solid State Devices, Inc. claim; software support
to international partners; and fault detection, isolation, and recovery/reconfiguration worksheets for ISS
milestone flights 5A and 6A. The potential RFEA’s had a value of about $68 million.
14
   The Johnson Center Director signed the waiver for the submission of current cost and pricing data in
accordance with FAR 15.403-1(c)(iii)(4), which requires the head of a contracting activity to sign such
waivers. NASA FAR Supplement 1802.101 identified the Center Director as the head of the contracting
activity at field installations.
15
   The contract had a cost incentive fee range from 2 percent to 15 percent. The $986 million variance
effectively precluded Boeing from earning more than the minimum 2 percent.
16
   New work is defined as on-ground contract changes definitized or authorized after October 1, 1999.
Findings and Recommendations

Finding A. Adequacy of Support for Global Settlement
Johnson settled 38 RFEA’s and Boeing’s other potential claims valued at more than
$404 million17 without performing a sufficient analysis to show that Boeing’s proposed
costs were fair and reasonable. Johnson also waived a FAR requirement for the
contractor to submit certified cost or pricing data without adequate support for the waiver
and did not request that Boeing submit information other than current cost or pricing data
needed to negotiate the global settlement. These conditions occurred for two reasons.
First, Johnson believed that the global settlement was in NASA's best interest because it
avoided significant costs and resources needed to negotiate and settle the claims
separately. Second, the NASA Headquarters Office of Procurement had not performed
sufficient oversight on the global settlement to ensure that Johnson performed a cost or
price analysis18 (see Finding B). As a result, NASA has little assurance that the
contractor did not overstate the value of its 38 RFEA’s and other potential claims. In
addition, NASA’s settlement of all the claims does not give the contractor an incentive to
control costs not yet incurred as of the time of the restructuring.

Procurement Requirements

The Truth in Negotiations Act. The Truth in Negotiations Act (the Act) was enacted in
1962 because the Congress perceived that the Government’s negotiation position is
weakened by the failure of contractors to disclose current, accurate, and complete cost
and pricing data, particularly in noncompetitive procurements. The Act was intended to
correct the perceived imbalance in negotiating positions. The Act was also designed to
prevent contractors from reaping excessive profits on contracts with the Government by
providing Government negotiators with accurate and current information on contract
proposals. Provisions of the FAR implement the Act and require contractors to submit a
certified statement of current, accurate, and complete cost data on contract proposals
valued at more than $500,000, without the benefit of competition.19 The goal of the Act
is the promotion of fair dealing in negotiating contracts in circumstances in which the
Government must rely primarily upon the contractor for cost and pricing data.




17
   The 38 RFEA’s were valued at $328 million, and the other claims were valued at $76 million for a total
global settlement of $404 million. NASA was not able to determine how much of the $404 million was
cost already incurred by Boeing and how much was cost yet to be incurred.
18
   FAR 15.404-1(b)(1) defines a price analysis as the process of examining and evaluating a proposed price
without evaluating its separate cost elements and proposed profit.
19
   In exceptional cases, the requirement for contractor submission of certified cost data can be waived if the
head of the contracting activity can determine the price to be fair and reasonable without the submission of
cost or pricing data.

                                                      2
Requirements for a Cost or Price Analysis. FAR 15.4, "Contract Pricing," requires the
contracting officer to:

     •   Purchase supplies and services from responsible sources at fair and reasonable
         prices.

     •   Perform a cost or price analysis to develop a negotiation position that facilitates
         agreement by the contracting officer and the offeror on a fair and reasonable
         price.

     •   Document all audit and field pricing information20 in the contract file.

FAR 15.403-4(a)(1), “Requiring Cost or Pricing Data,” allows the contracting officer to
request a waiver if the contracting officer has sufficient information available to
determine price reasonableness. The head of the contracting activity can waive the
requirement for submission of cost or pricing data in exceptional cases if the price can be
determined to be fair and reasonable without the submission. The waiver and supporting
rationale must be written.

A waiver of current cost and pricing data does not relieve contracting officers of the
requirement to perform an analysis of a contractor’s cost proposal. When a waiver is
obtained, FAR 15.404-1 requires the contracting officer to, at a minimum, perform a
price analysis. The FAR states that the Government may use various price analysis
techniques and procedures to ensure a fair and reasonable price. The contracting officer
may also use a cost analysis to evaluate information other than cost or pricing data to
determine cost reasonableness. However, FAR 31.201-3(a), “Determining
Reasonableness,” indicates that the Government should not presume that costs incurred
by a contractor are reasonable. (Appendix E contains details on the FAR requirements.)

Support for Waiver of Cost or Pricing Data

Waiver of Cost or Pricing Data. On December 22, 1999, Johnson submitted its
determination and findings for the authority to waive submission of certified cost or
pricing data21 pursuant to the authority of the FAR and NASA FAR Supplement. The
waiver cites the following reasons as justification for not requiring certified cost or
pricing data:

     •   Johnson has sufficient information available from Boeing’s Performance
         Measurement System Reports22 and Government assessments of Boeing’s


20
   Audit and field pricing information includes technical, audit, and special reports associated with the cost
elements of a proposal.
21
   The Act requires contractors to submit certified cost data to establish a common basis for negotiations.
22
   Performance Measurement System Reports provide management the primary data for determining current
cost and schedule performance and the forecast of the estimated cost at completion.

                                                      3
         estimate at completion to determine that the total cost adjustment is fair and
         reasonable.

     •   Boeing’s Earned Value Management System23 was approved in November 1998.

     •   A fee of less than 1 percent of the total cost adjustment was negotiated and can be
         independently determined to be reasonable based on Government estimates of
         valid RFEA issues; therefore, the settlement poses little risk to the Government.

     •   The global settlement allows Boeing and the Government to avoid significant
         costs for Boeing to prepare cost proposals and for the use of significant Boeing
         and Government business and technical resources in reviewing, fact-finding, and
         negotiating RFEA’s submitted individually.

When a contracting officer decides to not require the submission of certified cost or
pricing data, the contracting officer must obtain a waiver. Furthermore, contracting
officers should obtain waivers before negotiations of the costs begin, not after the
contract has been modified and signed. Johnson did not issue the waiver until after
completing the negotiations24 and signing the modification.25

Information other than Current Cost and Pricing Data. Although the waiver cites
reasons for not requiring the contractor to submit certified cost or pricing data, the waiver
does not relieve the contractor from submitting data necessary for the purposes of a
Government analysis of cost/price reasonableness for negotiating a change.
FAR 15.403-3(a), “Requiring information other than current cost and pricing data,” states
that even though a waiver has been obtained, the contractor is required to submit other
information that the contracting officer would need to evaluate the reasonableness of the
price. If a price analysis alone cannot permit the negotiation of a fair and reasonable
price, then the contracting officer should perform a cost analysis.

Boeing’s Performance Measurement System Report and Earned Value
Management System. Johnson's support for its waiver does not meet FAR 15.403-1(c)
criteria for issuing such waivers. Johnson's primary basis for determining that the
RFEA’s were fair and reasonable was the presumed sufficiency and reliability of
Boeing's monthly Performance Measurement System Reports and Boeing’s approved
Earned Value Management System. The ISS Program Office monitors those systems as

23
   An Earned Value Management System tracks and identifies contract results by work breakdown structure
and identifies program elements (variances) that have either exceeded or failed to meet contractually
identified thresholds of performance jointly agreed to by the customer and program management. In our
Report No. IG-99-04, “Earned Value Management at NASA,” September 30, 1999, we recommended that
NASA issue earned value management policy as program and project directives and establish procedures
for reporting comprehensive earned value management information to upper management.
24
   According to the price negotiation memorandum, negotiations began on September 21, 1999, and
concluded on October 8, 1999.
25
   Boeing and NASA signed the modification on December 21, 1999. The Johnson Center Director signed
the waiver for submission of cost or pricing data on December 22, 1999.

                                                   4
part of its general contract administration functions but did not perform specific reviews
on the proposed RFEA costs. The Defense Contract Management Agency approves the
Earned Value Management System, which generates a monthly Performance
Measurement System Report for NASA, based on whether Boeing’s Earned Value
Management System is consistent with its Government-approved systems descriptions.
This approval does not ensure that any cost information related to individual RFEA’s is
sufficient to support negotiations. Although Boeing has a Government-approved Earned
Value Management System, it does not accumulate cost information on specific RFEA’s.
Although Johnson’s post-negotiation memorandum showed a fee of less than 1 percent of
the total cost adjustment,26 the Agency had no assurance that the minimal fee offset a
potentially higher cost avoidance that could be obtained from negotiations based on an
adequate cost analysis27 of the $404 million in RFEA costs. Furthermore, Johnson did
not obtain information in lieu of certified cost or pricing data for purposes of determining
cost reasonableness. Therefore, Johnson did not have a sufficient basis for assessing
Boeing's costs for the RFEA’s and only presumed that costs were fair and reasonable.

Reliance on Boeing’s Estimates. Boeing identified the 38 RFEA’s and submitted
proposals on 10 of the RFEA’s from late March through early August 1999. The
10 proposals were valued at more than $168 million, more than 50 percent of the value of
the 38 RFEA’s. Johnson relied on Boeing’s estimate of costs and did not perform a price
analysis on the submitted proposals, even though the proposals were received at least
2 months before the completion of negotiations. Also, Johnson did not ask the Defense
Contract Audit Agency (DCAA) to determine acceptability of incurred costs and
estimates of cost to be incurred28 as represented by Boeing for the RFEA’s. Instead,
Johnson stated it was satisfied with Boeing’s cost estimates because the ISS Business
Management Office performed quarterly estimate-at-completion reviews. Further,
Johnson did not attempt to quantify the potential cost of proposal preparations and
resources that would have been spent on reviewing, fact-finding, and negotiating
individually submitted RFEA’s. Boeing assured the ISS Program Office that all the
RFEA’s were included in Boeing’s estimate at completion for the contract.

Johnson explained that the costs and resources needed to negotiate and settle the claims
separately would have outweighed the benefit. Johnson further explained that the
amount was reasonable because Boeing's estimate to complete the contract included the
$404 million and was less than Johnson's estimate to complete. However, such a high-


26
   Johnson negotiated a fee of $3.5 million (less than 1 percent) of Boeing’s estimated $404 million in
RFEA’s.
27
   While costs incurred in excess of target cost (overruns) are reimbursable on this cost reimbursable
contract, poor cost performance is a factor in award fee determinations. Also, Boeing is responsible for
controlling costs not yet incurred.
28
   DCAA provides contract audit services to Government agencies and determines whether costs are
reasonable, allocable, and allowable. If requested, DCAA can provide advice and recommendations on
costs represented by Boeing before the award, negotiation, or settlement of the RFEA’s.


                                                     5
level cost comparison cannot determine whether the costs of underlying elements are fair
and reasonable, especially when Boeing has historically understated costs on the ISS
contract (see Appendix F for details on prior reports).

Anticipated Claims by Boeing

The global settlement did not settle all pending Boeing claims. Boeing had not yet
submitted several additional RFEA issues to Johnson. Boeing’s May 2001 Performance
Measurement System Report estimated the value of RFEA’s since the restructuring
modification at $200 to $330 million. Boeing added $200 million to the statement of
work until the RFEA’s are negotiated. Boeing also assessed cost related to various
RFEA’s that have been incurred but are not yet included in the statement of work. As of
May 2001, Boeing identified the RFEA’s as follows, but has not provided NASA any
additional information:

     •   multiple element integrated testing related impacts to design, development, test,
         and evaluation;

     •   design, development, test, and evaluation impacts related to Revision E29 of ISS
         assembly plans;

     •   cumulative effect of changes; and

     •   other items associated with contract provision H-67, “Request for Equitable
         Adjustment Exclusions.”30

NASA will need to negotiate a significant value of claims in the future. Therefore, the
Agency should ensure that it can properly determine whether the costs are reasonable, the
contractor has an incentive to control costs, and the Agency has an appropriate approach
to settling future claims.

Closer Scrutiny of Boeing's Costs Is Warranted

ISS Program officials have stated that the risk of the Agency’s circumventing the cost or
price analysis for the restructuring modification is minimal because the ISS contract is
cost-reimbursable, and the negotiated fee that was applied to the RFEA’s is very low.
This rationale does not recognize the significant risk of presuming that the contractor has
not overstated the $404 million in RFEA costs and relies on theoretical safeguards of
contractor systems certifications in lieu of required cost or price analyses. The reviews
of Boeing’s Earned Value Management System performed by the Defense Contract
Management Agency were not in-depth reviews of cost accumulation or estimating
techniques for specific RFEA’s and did not include a review of the system itself, which

29
   Revision E was the ISS assembly sequence approved in June 1999. The current assembly sequence is
Revision F, effective August 2000.
30
   Footnote 13 lists the other items.

                                                  6
can be manipulated by the contractor. Since the inception of the ISS contract, Boeing has
continually understated its cost overruns, resulting in overpayments by NASA (see
Appendix F).31 Boeing's trend of poor cost reporting warrants closer rather than less
NASA scrutiny of Boeing's costs. NASA’s expectation that the estimate at completion
will be higher than Boeing’s estimate does not mean that Boeing's estimate of the
RFEA’s is realistic. Because NASA will likely need to negotiate future claims of as
much as $330 million, the Agency should ensure that contracting officers perform a
thorough proposal analysis even if the Agency waives submission of certified cost and
pricing data.

Recommendation, Management’s Response, and Evaluation of
Response
1. The Acting Director, Lyndon B. Johnson Space Center, should, for future
   modifications of the ISS contract, direct the contracting officer to perform an
   adequate price or cost analysis as necessary to obtain fair and reasonable prices
   and to properly support justifications for a waiver to obtain certified cost and
   pricing data, as required by the FAR.

Management’s Response. Nonconcur. The recommendation simply reaffirms
applicable regulations and policies that NASA followed during the restructuring activity.
Because there has not been a nonconformance with applicable requirements, direction to
follow existing requirements is not necessary. The complete text of management’s
response is in Appendix G.

Evaluation of Response. Management’s comments are not responsive to the
recommendation. We maintain our position that Johnson did not perform the price or
cost analysis required by the FAR and did not properly support a waiver for the
requirement to obtain certified cost or pricing data. Because we believe that requesting
additional management comments would not be productive, we will forward the
recommendation to the NASA Audit Followup Official for final resolution. Our
additional comments in response to management’s position on the finding are in
Appendix H.




31
 An understated cost overrun can potentially result in increased fee earned by a contractor. An overstated
RFEA can result in a higher contract value that could mask an overrun.

                                                    7
Finding B. Oversight by NASA Office of Procurement
The NASA Office of Procurement did not exercise adequate oversight of the global
settlement of the ISS contract. The Office of Procurement delegated the Master Buy Plan
actions to the Johnson Procurement Office. However, the Office of Procurement did not
ensure that Johnson took the requested actions. This occurred because the Office of
Procurement (1) had only informal, oral contacts with Johnson that did not identify
details of the planned procurement approach and (2) did not follow up in writing on the
requested actions. As a result, the Office of Procurement did not know that Johnson had
not performed cost or price analyses of the RFEA’s, which were a major part of one of
the most significant noncompetitive awards in FY 2000.32

Requirements for Master Buy Plan

NASA FAR Supplement 1807.71, “Master Buy Plan,” requires Agency installations to
provide information on planned acquisitions, including supplemental agreements, to the
NASA Headquarters Office of Procurement on a Master Buy Plan submission. Master
Buy Plan submissions and revisions enable management to focus attention on a
representative selection of high-dollar-value or high-interest acquisitions.33 The Office of
Procurement can delegate the acquisition to any NASA installation.

NASA FAR Supplement 1807.7102-3(b), "Selection and Notification Procedures,"
requires that when an acquisition is changed (for example, increase or decrease in dollar
amount, change in requirement, canceled, superseded, deferred, or is no longer subject to
the Master Buy Plan procedures), the installation must immediately notify the NASA
Headquarters Office of Procurement and explain the reasons. The Office of Procurement
must notify the installation’s procurement office in writing of any further action that may
be required, such as Headquarters’ approval of the procurement.

Submission of Master Buy Plan

In accordance with the NASA FAR Supplement 1807.71, “Master Buy Plan,” Johnson
submitted an April 1998 request to the Office of Procurement for review and approval.
This request represented amendments to the ISS contract that would result in a changed
contract value of more than $50 million. In a July 1998 letter of delegation, the Office of
Procurement delegated the Master Buy Plan actions for the amendments to the Johnson
Procurement Office. The letter of delegation stated that the Office of Procurement was
particularly concerned about the possibility that the impacts of the overruns on the
contract would not be properly integrated with contract adjustments of costs identified in

32
   The global restructuring modification accounted for about 17 percent of the total $3.2 billion of
procurements during FY 2000 for noncompetitive contracts awarded by NASA before FY 2000.
33
   The Master Buy Plan applies to acquisitions that (1) are expected to equal or that exceed $50 million or
(2) are of such a nature that in the judgment of the installation or Headquarters, the acquisition warrants
Headquarters’ consideration.


                                                      8
the RFEA’s.34 For this reason, the Office of Procurement directed Johnson to keep the
Office of Procurement informed of the strategy used to integrate cost overruns with other
potential changes in contract cost targets because the overruns would also be definitized
in the modification. The letter of delegation also required Johnson to submit an
information copy of the pre-negotiation memorandum to the Office of Procurement
before reopening discussions with Boeing for definitization of an overrun. However,
neither Johnson nor the Office of Procurement could show us that they had a strategy in
place to integrate the RFEA costs with previous overrun costs to ensure that they had not
been definitized twice. Additionally, Johnson did not prepare a pre-negotiation
memorandum to provide to the Office of Procurement.35

Delegation of Master Buy Plan

Johnson kept the Office of Procurement orally apprised of the increasing value of the
contract modification and other changes by the negotiation team, including the decision
to restructure the contract’s fee structure. The Office of Procurement agreed to allow
Johnson to continue with the actions associated with the evolving procurement.
However, the Office of Procurement did not follow up in writing with the Johnson
Procurement Office, as required by NASA FAR Supplement 1807.7102-3(b), to
acknowledge the changes associated with this procurement action. The Office of
Procurement acknowledged that its documentation was limited but believed that its
frequent conversations with the ISS Program Office regarding the planned procurement
approach were sufficient. However, the actions were not sufficiently thorough for the
Office of Procurement to recognize that Johnson had not performed cost or price analyses
of the RFEA’s.

Recommendation, Management’s Response, and Evaluation of
Response
2. The Associate Administrator for Procurement should instruct the Headquarters
   procurement staff to perform adequate oversight on Master Buy Plan
   delegations for ISS procurement actions, emphasizing the requirement for
   thorough documentation and a price or cost analysis.




34
   One of the 38 RFEA’s included the remaining $53 million of the $203 million in overrun costs that we
reported in Report No. IG-00-007, “Performance Management of the International Space Station
Contract,” February 16, 2000. Johnson planned to definitize the overrun as part of the global settlement.
Definitize means to settle and sign a contractual action that would include a modification to an existing
contract.
35
   After discussions and definitization of the modification, Johnson submitted a price negotiation
memorandum to the Office of Procurement. The price negotiation memorandum explained the details of
the global settlement.

                                                     9
Management’s Response. Concur. While acknowledging that more rigorous adherence
to the established Master Buy Plan procedures would have been appropriate in managing
changes to the ISS program, we maintain that sufficient insight into those changes was
afforded by the ongoing communications among the Center ISS procurement personnel
and procurement analysts responsible for the ISS Program within the Office of
Procurement. Those communications gave us confidence that Johnson was performing
sufficient analysis, albeit not a traditional cost or price analysis usually associated with
pre-award contract negotiation, of the cumulative value of the RFEA's and related fee
adjustment to assure an equitable settlement could be achieved among the parties (see
Appendix G).

Evaluation of Response. Management's comments are contradictory regarding
adequacy of oversight. We maintain that if the Office of Procurement had followed
Master Buy Plan procedures, it would have known that the ISS Program Office did not
plan to perform a price or cost analysis and may have directed Johnson to perform the
analysis or obtain a waiver. However, in response to management's comments, we
revised the recommendation (the original draft recommendation is recommendation 2 in
Appendix G) to focus on performing adequate oversight rather than on establishing
additional procedures. Therefore, we request that management provide comments on the
revised recommendation.




                                            10
Finding C. Modification of ISS Contract Fee Structure
Johnson inappropriately modified the fee structure of the ISS contract by eliminating the
Agency's option to recoup provisional fees paid to Boeing if the contractor's technical
and cost performance is ultimately unsatisfactory. First, Johnson eliminated the incentive
fee pool that was based on objective performance evaluation criteria and replaced it with
a cost performance award fee pool that, contrary to Agency policy, does not measure
actual cost performance. Then, Johnson created a technical performance award fee pool
and a base fee pool that, contrary to Agency policy, are not subject to penalty for
unsatisfactory on-orbit hardware performance. Johnson created the new fee pools as part
of the global settlement to allow Boeing to earn fees that it would not have to repay for
subsequent unsatisfactory on-orbit hardware performance and to provide an incentive for
the contractor to control costs. However, Johnson cannot measure the work upon which
the cost performance award fee should be based because the ISS contract does not require
Boeing to measure the cost of new work. As a result, Johnson could pay Boeing as much
as $69.4 million in fee even if Johnson's final evaluation of Boeing’s on-orbit hardware
performance is unsatisfactory.

NASA Guidance on Award Fee Contracts

NASA has issued guidance regarding award fee contracts in the NASA FAR Supplement
and in the NASA Award Fee Contracting Guide, December 2, 1997 (revised). The
NASA FAR Supplement states that:

   •   Performance-based contracts shall include both positive and negative
       performance incentives, and any exceptions shall be approved in writing by the
       Center Director. This requirement is also in the NASA Award Fee Contracting
       Guide.

   •   All award fee evaluations, with the exception of the last evaluation, will be
       interim, and no award fee or base fee will be paid if the final award fee evaluation
       is poor/unsatisfactory.

   •   When a base fee is authorized in a cost-plus-award fee contract, it shall be paid
       only if the final award fee evaluation is satisfactory or better.

   •   The measurement of the contractor’s performance against the negotiated
       estimated cost of the contract should be the predominant consideration of the cost
       control evaluation. This requirement is also in the NASA Award Fee Contracting
       Guide.

Analysis of ISS Program Office Modification to the Contract Fee Structure

Johnson modified the contract fee structure by creating a technical performance award
fee pool (FY 2000 Forward Technical Performance Award Fee), a base fee pool, and a


                                            11
cost performance award fee pool (FY 2000 Forward Cost Performance Award Fee). A
discussion of how the three award fee pools do not meet Agency policy follows:

Technical Performance Award Fee Pool and Base Fee Pool

Original Contract Provision. At contract inception, January 1995, the contract included
a positive performance incentive in the on-ground performance evaluation. Boeing could
earn $205 million in award fee (about 5 percent of target cost). The contract also
included a negative performance incentive in the on-orbit performance evaluations,
which could cause a downward adjustment to any on-ground award fee provisionally
earned by Boeing. During the original negotiations, Boeing opposed this riskier form of
award fee performance evaluation. However, the ISS Program Office, with the support
of the NASA Office of Procurement, succeeded in negotiating the negative incentive
aspect into the contract fee structure.

Contract Restructuring Modification. As part of the December 1999 restructuring,
Johnson departed from the original contract fee philosophy and accepted Boeing’s
request to have new work excluded from the repayment provision of the on-orbit
performance evaluations. Johnson did this by creating a technical performance award fee
pool of $35.8 million36 and a base fee pool of $8.9 million for new work added to the
contract after September 1999. For both fee pools, Boeing can earn but not subsequently
lose on-ground award fee for unsatisfactory performance on-orbit.

No Negative Incentive. The new technical award fee and base fee pools contain a
positive performance incentive in that Boeing can earn up to $44.7 million. Any part of
the $44.7 million that is initially unearned can later be earned through an upward
adjustment resulting from a successful final on-ground performance evaluation.
However, none of the $44.7 million that is initially earned is subject to either a
downward adjustment based on the final on-ground performance evaluation or repayment
based on the on-orbit performance evaluation, even if those evaluations show that
performance is unsatisfactory. Therefore, the contract contains no negative performance
incentive, which is required by the NASA FAR Supplement and the Award Fee
Contracting Guide for award-fee contracts with primary deliverables of hardware and
with a total estimated cost and fee greater than $25 million. 37

36
   The evaluation factors for technical performance are program management (30 percent); technical
performance, including schedule, quality, and safety (55 percent); and small disadvantaged business
performance (15 percent).
37
   NASA FAR Supplement 1816.402-270, “NASA Technical Performance Incentives,” requires that
performance-based contracts with primary deliverables of hardware costing more than $25 million include
both positive and negative performance incentives. This requirement is also in NASA’s Award Fee
Contracting Guide, December 2, 1997 (revised). NASA FAR Supplement 1816.402-270 also requires the
Center Director to approve any exceptions to this requirement in writing. (Appendix E contains details on
the NASA FAR Supplement requirement.) In addition, NASA FAR Supplement 1852.216-77, “Award
Fee for End Items Contracts,” requires that all award fee evaluations, with the exception of the last
evaluation, will be interim evaluations. At the last evaluation, which is final, the contractor’s performance
for the entire contract will be evaluated to determine total earned award fee. No award fee or base fee will

                                                     12
Base Fee Evaluation. Boeing can earn the $8.9 million base fee38 if the final on-ground
award fee score is 61 (satisfactory) or higher. The NASA FAR Supplement allows the
base fee to be paid only if the final award fee evaluation is satisfactory or better. In
addition, if the final award fee evaluation is below 61 (poor/unsatisfactory), all
provisional base fee payments must be refunded to the Government. By eliminating the
repayment requirement, Johnson did not follow the NASA FAR Supplement
requirements for base fee39 and could ultimately pay Boeing at least $8.9 million in base
fee for unsatisfactory on-orbit performance of the ISS.

Cost Performance Award Fee Pool

Original Contract Provision. At inception, the ISS contract included an incentive fee
provision that allowed Boeing to earn a minimum of $82 million (about 2 percent of
target cost) up to a maximum of $615 million (about 15 percent of target cost), depending
on the actual contract cost. As discussed earlier, Johnson and Boeing recognized that
Boeing could earn only the minimum incentive fee for the remaining life of the contract
because of the cost overrun.

Contract Restructuring Modification. As part of the restructuring, Johnson wanted to
give Boeing an incentive to control cost and, therefore, agreed to Boeing’s request to
exclude new work from the repayment provision of the on-orbit performance evaluations.
Johnson did this by creating an award fee pool of $24.7 million for cost performance that,
like the technical performance award fee pool and base fee pool, was not subject to
repayment.

Measurement of Cost Performance. The Performance Evaluation Plan for the award
fee pool identifies the evaluation factor as overall cost performance, including:

    •    the estimate to complete,

    •    integrated management of cost risk and opportunities,

    •    forecasting of budgetary requirements, and

    •    appropriate use of the Earned Value Management System and compliance with
         Earned Value Management System criteria.

be paid to the contractor if the final award fee evaluation is poor/unsatisfactory. If the final award fee
evaluation is poor/unsatisfactory, any base fee paid will be refunded to the Government.
38
   This dollar amount is based on a percentage for changes authorized but not definitized as of October 1,
1999, when the contract was restructured (see Appendix C).
39
   NASA FAR Supplement 1816.405-271, “Base Fee,” requires that when a base fee is authorized for use in
a cost-plus-award fee contract, it shall be paid only if the final award fee evaluation is satisfactory or better.
Pending final evaluation, base fee may be paid during the life of the contract at defined intervals on a
provisional basis. If the final award fee evaluation is poor/unsatisfactory, all provisional base fee payments
shall be refunded to the Government.


                                                       13
None of these factors address Boeing’s actual cost performance compared to the
negotiated contract estimated cost for new work. Johnson has awarded Boeing scores of
70 (satisfactory), 70, and 72 (good), respectively, for cost performance for the three
6-month periods following the contract restructuring, resulting in earned amounts and
payments of $9.8 million. Also, $4.0 million that was unearned may be earned and paid
based on the final performance evaluation. However, neither Johnson nor Boeing
officials know the actual cost performance relative to the estimated cost of the new work
for which this award fee was added to the contract, because neither Johnson nor Boeing
measures the cost of new work. Therefore, the cost performance award fee pool conflicts
with the NASA FAR Supplement requirement to measure the contractor’s success in
controlling cost. 40

Appropriateness of Fee Restructuring

The ISS contract originally included an aggressive and motivating award and cost
incentive fee structure consistent with the NASA FAR Supplement and the Award Fee
Contracting Guide. However, Johnson’s establishment of the technical performance
award fee pool, cost performance award fee pool, and base fee pool eliminated provisions
that are required by Agency guidance and are designed to limit payment of award fee to
successful on-orbit performance and measurable cost control by contractors.

Technical Award Fee and Base Fee Pool. The technical award fee pool and the base
fee pool, totaling $44.7 million, eliminated the negative performance incentive. For the
final award fee evaluation, Johnson should have provided for the possibility that Boeing
could lose fee for poor on-orbit performance rather than guarantee that Boeing will keep
all previously earned fees regardless of performance.

Cost Performance Award Fee Pool. The cost performance award fee pool (totaling
$24.7 million) evaluation is not based on the costs associated with the pool but on
Boeing’s overall cost performance. NASA does not require Boeing to measure costs
related to this pool. Consequently, there is no way for NASA to evaluate cost controls
and thereby measure Boeing's performance against the negotiated estimated cost.

Recommendation, Management’s Response, and Evaluation of
Response
3. The Acting Director, Lyndon B. Johnson Space Center, should reinstate the
   repayment provision in the ISS contract for work added after September 1999
   that relates to on-orbit performance, and establish fee pools that are consistent


40
  NASA FAR Supplement 1816.405-274, “Award Fee Evaluation Factors,” requires that the predominant
consideration of the cost control evaluation be a measurement of the contractor’s performance against the
negotiated estimated cost of the contract. The Award Fee Contracting Guide also requires that success in
controlling costs be measured against the estimated cost of the contract rather than budgetary or operating
plan cost (see Appendix E).

                                                    14
   with Agency criteria. Alternatively, Johnson should obtain a waiver from the
   requirements of NASA FAR Supplement 1816.402-270, 1816.405-271,
   1816.405-274, and 1852.216-77 regarding the new ISS fee pools, with sufficient
   supporting documentation.

Management’s Response. Nonconcur. The revisions to the fee structure did not give up
existing rights with regard to on-orbit performance. The full technical content of the on-
orbit vehicle under the contract both before and after the contract restructuring is subject
to an on-orbit performance assessment. The only thing that the restructure did was to
limit the maximum possible fee loss, due to on-orbit performance, to $202 million (see
Appendix G).

Evaluation of Response. Management’s comments are not responsive to the
recommendation. We are concerned about the lack of a repayment provision after
restructuring rather than whether there is a technical assessment of on-orbit performance.
The $202 million loss limit inappropriately allows Boeing to keep all fees above the limit
even if on-orbit performance is unsatisfactory. Johnson has not addressed the fact that
Boeing’s technical award and base fee ($44.7 million and increasing) is not subject to
either a downward adjustment based on the final on-ground performance valuation or
repayment because of an unsatisfactory on-orbit performance evaluation. We maintain
our position that, at a minimum, Johnson should obtain a waiver for deviating from the
stated requirements of the NASA FAR Supplement. Because we believe that requesting
additional comments will not be productive, we will forward the recommendation to the
NASA Audit Followup Official for final resolution (see Appendix H).




                                            15
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to evaluate NASA’s December 1999 restructuring of the
International Space Station (ISS) contract. Specifically, we determined whether the
global settlement of the contractor’s requests for equitable adjustment was appropriately
justified and executed and whether the fee structure was appropriate.

Scope and Methodology

To meet our objectives, we reviewed the restructuring contract modification
(modification number 836), the associated price negotiation memorandum, the waiver for
certified cost and pricing data, and the contract status report. We interviewed personnel
in the ISS Procurement Office, the ISS Business Management Office, and the Lyndon B.
Johnson Space Center (Johnson) Legal Office. We also interviewed personnel in the
NASA Headquarters Office of Procurement, Program Operations Division. We reviewed
applicable regulations including the Federal Acquisition Regulation (FAR), NASA FAR
Supplement, NASA’s Award Fee Contracting Guide, and the Truth in Negotiations Act.
We did not assess the reliability of computer-processed data because we did not rely on it
to achieve our objectives.

Management Controls Reviewed

We reviewed management controls relative to cost and pricing data for the Request for
Equitable Adjustments as described in FAR 15, “Contracting by Negotiation.” We also
reviewed management controls relative to award fee plans as described in NASA FAR
Supplement 1816.4, “Incentive Contracts,” and NASA’s “Award Fee Contracting
Guide.” Management controls needed to be strengthened to ensure that Johnson
performed adequate price analyses as required by the FAR (see Finding A), that the
Office of Procurement provided adequate oversight of major procurement actions as
required by the NASA FAR Supplement (see Finding B), and that Johnson established
award fee pools as required by the NASA FAR Supplement and the Award Fee
Contracting Guide (see Finding C).

Audit Field Work

We performed the audit field work from September 2000 through April 2001 at Johnson.
We performed the audit in accordance with generally accepted government auditing
standards.




                                            16
                                                                        Appendix A

Summary of Prior Audits and Reviews

The NASA Office of Inspector General and the General Accounting Office have issued
numerous reports on the ISS Program. Related reports are summarized in Appendix F of
this report.




                                         17
                Appendix B. International Space Station Contract

Brief Description of the Statement of Work. The Statement of Work for the
International Space Station (ISS) contract describes The Boeing Company’s (Boeing’s)
requirements for the design, development, manufacture, integration, test, verification, and
delivery to NASA of the U.S. On-Orbit Segment41 of the ISS, including ground support
equipment, and for support for ground and orbital operations. The Statement of Work
also requires that Boeing provide technical support and data for NASA's operation and
utilization of the ISS and describes Boeing’s requirements to integrate the complete ISS
System.

Date Awarded and Price. NASA awarded the ISS contract, NAS15-10000, January 13,
1995, for a total value of $5.638 billion. As of October 19, 2001, the contract value was
$9.747 billion. However, NASA expects the contract value to increase to $11.3 billion.

Major Modifications. On December 21, 1999, NASA and Boeing restructured the ISS
contract. The purpose of this restructuring was to definitize adjustments to the estimated
costs and fees, change the contract type, and address other contract actions. Boeing and
the ISS Program Office agreed that the modification provided full equitable adjustments
for all issues that were identified or known prior to October 1, 1999, excluding Class I
changes42 and the specific exclusions identified in Special Provision H.67, “Requests For
Equitable Adjustments.”

This modification also created two new award fee pools and a base fee pool relative to
on-ground contract changes definitized or authorized after October 1, 1999. The pools
relate to technical performance, cost performance, and base fee. Unlike the on-ground
award fee pool for the original contract, the new pools are not subject to repayment
provisions.

Contract Type. The ISS contract initially was a cost-plus-award fee/incentive fee/fixed
fee contract. When the contract was restructured, the fee structure was changed to cost-
plus-award fee/fixed fee contract.

Estimated Completion Date. The ISS contract states that all work required under the
contract shall be completed on or before December 31, 2003. As of June 4, 2001, the
final on-orbit award fee evaluation period was scheduled for 3 months after milestone




41
   The U.S. On-Orbit Segment is an Earth-orbiting facility that houses experiment payloads, distributes
resource utilities, and supports permanent human habitation for conducting research and science
experiments in a microgravity environment.
42
   A Class I change is a change resulting in any modification to the prime contract.


                                                    18
                                                                                            Appendix B

Flight UF5.43 The ISS Assembly Sequence, Revision F, August 2000, identifies the
launch date for milestone Flight UF5 as February 2005. The ISS Program Office has not
updated the ISS contract as to when completion is expected.44

Contractor. The prime contractor for the ISS is Boeing. Boeing has four development
sites with locations in Huntsville, Alabama; Canoga Park, California; Huntington Beach,
California; and Houston, Texas.

Costs Incurred to Date. As of October 30, 2001, NASA has obligated $9.6 billion and
disbursed $9.5 billion on the ISS contract.

Cost and Schedule Performance. Boeing’s Performance Measurement System Report,
January 2001, indicates that since contract inception, Boeing has declared $986 million in
cost overruns.45

Other Performance Information. Since April 1, 1996, NASA has evaluated
10 on-ground award fee periods. During these periods, Boeing’s award fee scores ranged
from 60 (poor/unsatisfactory) for the award fee period ended March 31, 1997, to 85 (very
good) for the latest evaluated award fee period ended March 31, 2001. A score of 60 or
below results in Boeing earning zero award fee dollars for the award fee period.




43
   Milestone Flight UF5 provides for experiment delivery, resupply, and change out for the ISS. Elements
contained on the flight include a multipurpose logistics module, which carries inside experiment equipment
racks, and an express pallet, which carries external experiment equipment.
44
   Modification No. 1100, October 26, 2001, contains the latest modifications to the ISS contract award fee
plan. The on-orbit award fee milestones have not been updated to correspond to the latest ISS assembly
sequence.
45
   NASA estimated that the overrun will be $1.14 billion.




                                                    19
Appendix C. Fee Structure of the International Space Station Contract
The International Space Station (ISS) contract originally established an award fee plan to
motivate The Boeing Company (Boeing) to strive for excellence in managerial, technical,
schedule, and subcontracting performance. The original award fee plan called for
periodic evaluations of Boeing’s on-ground and on-orbit performance. Each on-ground
performance evaluation could result in fee dollars earned. 46 Each interim on-orbit
performance evaluation would be applied to a percentage of earned on-ground
performance dollars that have not been retained by previous on-orbit evaluations. Any
dollars earned during each on-orbit period would become final and would no longer be
subject to repayment by Boeing. NASA and Boeing agreed to the award fee elements
and award fee percentages. The elements and percentages are listed in Table C-1.

                       Table C-1. Original ISS Contract Fee Structure
                                     (January 13, 1995)

                                                                      Percentage of
                                    Fee Element                        Target Cost
                            Maximum Award Fee                              5%
                            Minimum Incentive Fee                          2%
                            Target Incentive Fee                           5%
                            Maximum Incentive Fee                         15%


On December 21, 1999, NASA and Boeing agreed to a modification that changed the fee
structure of the ISS contract. These changes are identified in Table C-2.

                    Table C-2. Restructured ISS Contract Fee Structure
                                   (December 21, 1999)

                                                Percentage for                 Percentages for
                                             Changes Authorized                   Changes
                                            but Not Definitized as            Implemented After
               Fee Element                    of October 1, 1999               October 1, 1999
          Technical Award Fee                        5%                             6%
          Cost Award Fee                             3%                             5%
          Base Fee                                   2%                             N/A
          Special Incentive Fee                     N/A*                          Up to 3%

         *Not Applicable. The special incentive fee did not exist prior to contract restructuring.




46
 Fee dollars earned are the result of fee dollars available multiplied by a numerical rating based on a
maximum score of 100.


                                                     20
                                                                                          Appendix C

Lyndon B. Johnson Space Center (Johnson) changed the fee structure to facilitate and
provide Boeing an incentive for efficient, high-quality performance for the remaining
work under the ISS contract. For this purpose, Johnson established two new award fee
pools and a base fee pool for on-ground changes definitized or authorized after
October 1, 1999. The pools relate to technical performance (FY 2000 Forward Technical
Performance Award Fee), cost performance (FY 2000 Forward Cost Performance Award
Fee), and base fee.

After the restructuring, Johnson would perform on-ground and on-orbit performance
evaluations as it did prior to restructuring. However, the major difference pertains to on-
ground changes that are definitized or authorized after October 1, 1999. These changes,
which affect the FY 2000 Forward Technical Performance Award Fee pool, FY 2000
Forward Cost Performance Award Fee pool, and Base Fee pool, are not subject to on-
orbit repayment provisions. This restructuring of the fee pools would ensure that the
fees, totaling $69.4 million, as of October 19, 2001, are excluded from the on-orbit
performance evaluation repayment provisions and would not be subject to repayment
based on unsatisfactory on-orbit performance. Also, in conjunction with the final on-
ground performance evaluation, for the FY 2000 Forward Technical Performance Award
Fee pool and Base Fee pool, any unearned award fee will be carried forward and made
available to Boeing for a final look back47 and upward adjustment. Similarly, the
FY 2000 Forward Cost Performance Award Fee pool will be evaluated in the same way.
The earned award fee for this fee pool is also subject to a downward adjustment in
conjunction with the final on-ground performance evaluation.




47
 Look-back is the carrying forward of any unearned award fee dollars during the stated evaluation periods
and having the dollars made available to the contractor for the final award fee evaluation.




                                                   21
                              Appendix D. Monetary Benefits
As a result of our audit, we determined that NASA could better use $1,355,440 that
relates to the International Space Station (ISS) Program Office’s overstatement of
on-orbit award fee retained dollars.48 ISS Milestone Flight 2R was the first of seven
on-orbit award fee evaluation milestones and comprises 15 percent of the total on-orbit
award fee performance evaluation. NASA’s Performance Incentive Determination
Official49 evaluated Boeing’s ISS on-orbit performance, through Milestone Flight 2R, at
100 percent.

At the time of the first on-orbit performance evaluation, The Boeing Company’s
(Boeing’s) earned on-ground award fee was $118,504,482. We calculated that Boeing
was entitled to retain $17,775,672 as shown in Table D-1.

       Table D-1. Correct Calculation of On-Orbit Award Fee Retained Dollars

         $ 118,504,482               On-Ground Award Fee Earned Dollars*
             x 15 %                  Milestone A Award Fee Percentage
         $ 17,775,672                 Subtotal
             x 100 %                 Performance Incentive Determination Official Evaluation
         $ 17,775,672                 Subtotal

*Earned dollars are the results of each periodic on-ground award fee determination (on-ground award fee
 dollars available multiplied by an award fee score expressed as a percentage).


However, in compiling the earned on-ground award fee, ISS Program Office personnel
overstated the fee pool as $127,540,745. This overstatement of $9,036,263
($127,540,745 - $118,504,482) was the result of including the FY 2000 Forward
Technical Performance Award Fee earned amount of $9,031,884 and a $4,379 clerical
error.50 This error caused the on-orbit award fee retained dollars to be overstated by
$1,355,440 ($19,131,112 - $17,775,672). Details are in Table D-2.




48
   Retained dollars are those that become final after each on-orbit award fee period and that are no longer
subject to being recouped by NASA.
49
   The Performance Incentive Determining Official is the ISS Program Lead Center Director at Lyndon B.
Johnson Space Center.
50
   The ISS Contracting Officer described the $4,379 overstatement of the on-ground award fee earned
dollars as a clerical error. The ISS Program Office modified the contract to correct this error.



                                                     22
                                                                            Appendix D

    Table D-2. Erroneous Calculation of On-Orbit Award Fee Retained Dollars

       $ 127,540,745          On-Ground Award Fee Earned Dollars
           x 15 %             Milestone A Award Fee Percentage
       $ 19,131,112            Subtotal
           x 100 %            Performance Incentive Determination Official Evaluation
       $ 19,131,112           On-Orbit Award Fee Retained Dollars


At contract completion, Boeing is required to refund to NASA the excess of on-ground
award fee earned dollars over the on-orbit award fee retained dollars. Accordingly, the
overstatement could have caused the refund to be $1,355,440 less than what is actually
due. However, the ISS Contracting Officer took appropriate action to correct the error by
issuing a contract modification.




                                           23
                  Appendix E. Procurement Requirements
This appendix provides Federal Acquisition Regulation (FAR) and NASA FAR
Supplement clauses discussed in the report.

FAR 15.402, “Pricing Policy”

             Contracting officers must--

             (a) Purchase supplies and services from responsible sources at fair and
                 reasonable prices. In establishing the reasonableness of the offered prices,
                 the contracting officer shall not obtain more information than is necessary.
                 To the extent that cost or pricing data are not required by 15.403-4, the
                 contracting officer shall generally use the following order of preference in
                 determining the type of information required:

                 (1) No additional information from the offeror, if the price is based on
                     adequate price competition, except as provided by 15.403-3(b).

                 (2) Information other than cost or pricing data:

                     (i) Information related to prices (e.g., established catalog or market
                         prices or previous contract prices), relying first on information
                         available within the Government; second, on information obtained
                         from sources other than the offeror; and, if necessary, on
                         information obtained from the offeror.            When obtaining
                         information from the offeror is necessary, unless an exception
                         under 15.403-1(b)(1) or (2) applies, such information submitted by
                         the offeror shall include, at a minimum, appropriate information on
                         the prices at which the same or similar items have been sold
                         previously, adequate for evaluating the reasonableness of the price.

                     (ii) Cost information, that does not meet the definition of cost or
                          pricing data at 2.101.

                 (3) Cost or pricing data. The contracting officer should use every means
                     available to ascertain whether a fair and reasonable price can be
                     determined before requesting cost or pricing data. Contracting officers
                     shall not require unnecessarily the submission of cost or pricing data,
                     because it leads to increased proposal preparation costs, generally
                     extends acquisition lead time, and consumes additional contractor and
                     Government resources.




                                               24
                                                                                        Appendix E

FAR 15.403-1(b), “Prohibition on Obtaining Cost or Pricing Data”
             Exceptions to cost or pricing data requirements. The contracting officer shall
             not require submission of cost or pricing data to support any action (contracts,
             subcontracts, or modifications) (but may require information other than cost or
             pricing data to support a determination of price reasonableness….

                 (4) When a waiver has been granted (see standards in paragraph (c)(4) of
                     this subsection); . . .

FAR 15.403-1(c)(4), “Waivers”

             The head of the contracting activity (HCA) may, without power of delegation,
             waive the requirement for submission of cost or pricing data in exceptional
             cases. The authorization for the waiver and the supporting rationale shall be in
             writing. The HCA may consider waiving the requirement if the price can be
             determined to be fair and reasonable without submission of cost or pricing data.

FAR 15.403-3(a)(1), “Requiring Information Other Than Cost or Pricing Data”

             The contracting officer is responsible for obtaining information that is adequate
             for evaluating the reasonableness of the price or determining cost realism, but
             the contracting officer should not obtain more information than is necessary (see
             15.402(a)). If the contracting officer cannot obtain adequate information from
             sources other than the offeror, the contracting officer must require submission of
             information other than cost or pricing data from the offeror that is adequate to
             determine a fair and reasonable price.

FAR 15.403-4(a)(1), “Requiring Cost or Pricing Data”

             The contracting officer must obtain cost or pricing data only if the contracting
             officer concludes that none of the exceptions in 15.403-1(b) applies. However,
             if the contracting officer has sufficient information available to determine price
             reasonableness, then the contracting officer should consider requesting a waiver
             under the exception at 15.403-1(b)(4).

FAR 15.404-1, “Proposal Analysis Techniques”

             (a) General. The objective of proposal analysis is to ensure that the final
                 agreed-to price is fair and reasonable.

                 (1) The contracting officer is responsible for evaluating the reasonableness
                     of the offered prices. The analytical techniques and procedures
                     described in this subsection may be used, singly or in combination with
                     others, to ensure that the final price is fair and reasonable. The
                     complexity and circumstances of each acquisition should determine the
                     level of detail of the analysis required.




                                               25
Appendix E

                 (2) Price analysis shall be used when cost or pricing data are not required
                     (see paragraph (b) of this subsection and 15.404-3).

                 (3) Cost analysis shall be used to evaluate the reasonableness of individual
                     cost elements when cost or pricing data are required. Price analysis
                     should be used to verify that the overall price offered is fair and
                     reasonable.

                 (4) Cost analysis may also be used to evaluate information other than cost
                     or pricing data to determine cost reasonableness or cost realism.

FAR 15.404-1(b), “Price Analysis”

             (1) Price analysis is the process of examining and evaluating a proposed price
                 without evaluating its separate cost elements and proposed profit.

             (2) The Government may use various price analysis techniques and procedures
                 to ensure a fair and reasonable price.

FAR 31.201-3(a), “Determining Reasonableness”

             … reasonableness of specific costs must be examined with particular care in
             connection with firms or their separate divisions that may not be subject to
             effective competitive restraints. No presumption of reasonableness shall be
             attached to the incurrence of costs by a contractor.

NASA FAR Supplement 1807.71, “Master Buy Plan”

             The Master Buy Plan provides information on planned acquisitions to enable
             management to focus its attention on a representative selection of high-dollar
             value and otherwise sensitive acquisitions.

NASA FAR Supplement 1807.7101, “Applicability”

             (a) The Master Buy Plan applies to each negotiated acquisition, including
                 supplemental agreements and acquisitions through or from other
                 Government agencies, where the dollar value, including the aggregate
                 amount of options, follow-on acquisitions, or later phases of multi-phase
                 acquisitions, is expected to equal or exceed $50,000,000.

             (b) For initial annual Master Buy Plan submission only, each installation shall
                 submit its three largest acquisitions regardless of dollar value and all
                 acquisitions over $50,000,000.




                                              26
                                                                                      Appendix E

            (c) The procedure also applies to: (1) Any supplemental agreement that
                contains either new work, a debit change order, or a credit change order (or
                any combination/ consolidation thereof), if the absolute value of the actions
                equals or exceeds $50,000,000 (e.g., the absolute value of a supplemental
                agreement adding $30,000,000 of new work and deleting $30,000,000 of
                work is $60,000,000, and is therefore subject to the Master Buy Plan).

NASA FAR Supplement 1807.7102-3, “Selection and Notification Procedures”

            (a) The Headquarters Office of Procurement (Code HS) shall select acquisition
                documents from the Master Buy Plan and amendments to Master Buy Plans
                to receive Headquarters review and approval and shall designate source
                selection officials.

            (b) When, subsequent to document selection or delegation, an acquisition is
                changed (for example, increase or decrease in dollar amount, change in
                requirement), canceled, superseded, deferred, or becomes no longer subject
                to the Master Buy Plan procedures in accordance with the criteria in
                1807.7101, the installation shall immediately notify Code HS, giving the
                reasons. Code HS shall notify the installation's procurement office in
                writing of any further action that may be required.

            (c) Acquisition documents not selected for Headquarters review will be subject
                to after-the-fact reviews by Headquarters during normal procurement
                management surveys or other special reviews. Acquisition delegations may
                subsequently be rescinded if a Headquarters review is deemed appropriate.

NASA FAR Supplement 1816.402-270, “NASA Technical Performance Incentives”

            (a) Pursuant to the guidelines in 1816.402, NASA has determined that a
                performance incentive shall be included in all contracts based on
                performance-oriented documents (see FAR 11.101(a)), except those
                awarded under the commercial item procedures of FAR Part 12, where the
                primary deliverable(s) is (are) hardware with a total value (including
                options) greater than $25 million. Any exception to this requirement shall
                be approved in writing by the Center Director. Performance incentives may
                be included in hardware contracts valued under $25 million acquired under
                procedures other than Part 12 at the discretion of the procurement officer
                upon consideration of the guidelines in 1816.402. Performance incentives,
                which are objective and measure hardware performance after delivery and
                acceptance, are separate from other incentives, such as cost or delivery
                incentives.




                                              27
Appendix E

             (b) When a performance incentive is used, it shall be structured to be both
                 positive and negative based on hardware performance after delivery and
                 acceptance, unless the contract type requires complete contractor liability
                 for product performance (e.g., fixed price).

NASA FAR Supplement 1816.405-274(b), “Award Fee Evaluation Factors”

             Evaluation factors will be developed by the contracting officer based upon the
             characteristics of an individual procurement. Normally, technical and schedule
             considerations will be included in all CPAF [cost plus award fee] contracts as
             evaluation factors. Cost control shall be included as an evaluation factor in all
             CPAF contracts. When explicit evaluation factor weightings are used, cost
             control shall be no less than 25 percent of the total weighted evaluation factors.
             The predominant consideration of the cost control evaluation should be a
             measurement of the contractor's performance against the negotiated estimated
             cost of the contract. This estimated cost may include the value of undefinitized
             change orders when appropriate.




                                               28
                Appendix F. Prior Audits and Other Reviews

Office of Inspector General Reports

IG-00-007, “Performance Management of the International Space Station
Contract,” February 16, 2000. The Boeing Company (Boeing) reported unrealistically
low estimates of projected cost overruns and presented the cost data to indicate that no
additional cost overrun would occur. Although the Program Office was aware and had
evidence of cost overruns and schedule slippages, it did not refute the contractor’s
estimate. As a result, Boeing received unearned incentive fees totaling $16 million that
the Agency later recouped. Also, Boeing did not promptly notify NASA about the
potential cost increase due to Boeing’s reorganizations. NASA will be charged an
estimated $35 million in reorganization costs for the International Space Station (ISS)
Program through contract completion. The contractor submitted its proposals too late to
be negotiated prior to the provisional billing rates being adjusted upward and paid by
NASA at the higher levels. The proposed increases were submitted with little or no
forewarning to NASA. As a result, NASA may be paying higher costs than necessary
before the Government completes its review and negotiation of the proposed pricing and
billing rates.

IG-99-007, “Space Station Corrective Action Plans,” January 28, 1999. Boeing’s
corrective action plans and Johnson’s oversight of the plans needed improvement. The
ISS Program had experienced a continued deterioration in cost and schedule performance
after a September 1997 adjustment of the contract cost baseline, but variance analyses
and corrective action plans had not been effectively utilized to control the negative
variances. Additionally, Johnson did not provide effective oversight of Government
surveillance of Boeing’s Earned Value Management System, including verifying whether
Boeing took corrective actions related to cost variances and schedule variances. As a
result, the ISS Program lacked assurance that negative variances have been identified and
that corrective actions are being taken to reduce associated risk. Further, Johnson did not
ensure that Boeing took corrective actions on conditions noted since at least March 1997
to accurately prepare and submit Variance Analysis Reports. As a result, Variance
Analysis Reports may not adequately identify cost and schedule risks.

IG-98-002, “Space Station Performance Measurement Cost Data,” November 13,
1997. Boeing did not report reasonable cost data in its monthly performance reports on
the ISS contract because its monthly reports to NASA did not reflect its best estimate at
completion. Instead, Boeing reduced the monthly estimates provided by major
subcontractors under the prime contract in order to report a smaller cost overrun. As a
result, NASA received inaccurate cost data on the ISS contract.




                                            29
Appendix F

General Accounting Office (GAO) Reports

GAO-01-258, “Major Management Challenges and Program Risk: National
Aeronautics and Space Administration,” January 1, 2001. GAO cited contract
management and ISS costs as challenges that warrant increased NASA attention.
Regarding contract management, GAO stated that it is exceedingly important for NASA
to have accurate and reliable information on contract spending and to exercise effective
contract oversight. Regarding the ISS, GAO stated NASA will continue to face
challenges in controlling the cost and schedule of the program. GAO continued to
categorize contract management as high risk due to NASA’s ineffective systems and
process for overseeing contractor activities. GAO also stated that NASA has made
substantial progress in addressing these challenges, but key steps are still needed toward
correcting them.




                                            30
Appendix G. Management’s Response




               31
                  Appendix G




See Appendix H,
OIG Comment 1




                               32
     Appendix G




            See Appendix H,
            OIG Comment 2

            See Appendix H,
            OIG Comment 3




33
             Appendix G




See Appendix H,
OIG Comment 4




See Appendix H,
OIG Comment 5




See Appendix H,
OIG Comment 6




                          34
     Appendix G




            See Appendix H,
            OIG Comment 7




35
             Appendix G




See Appendix H,
OIG Comment 8




                          36
     Appendix G




           See Appendix H,
           OIG Comment 9




           See Appendix H,
           OIG Comment 10




           See Appendix H,
           OIG Comment 11




37
           Appendix G




Revised.




                        38
     Appendix G




            Deleted.




39
            Appendix G




Renumbered as
Recommendation 3




                         40
         Appendix H. OIG Comments on Management’s Response

The Johnson Space Center (Johnson) provided the following comments in its response to
our draft report. Our responses to the comments are also presented.

Management Comments. Johnson takes exception to many of the specific wordings in
the audit findings. However, rather than providing a lengthy and potentially confusing
line-by-line discussion of the exceptions, Johnson addressed the key concerns raised in
the audit.

1. OIG Comments. Although we provided Johnson with a working copy of the draft
report in May, Johnson decided not to discuss it with us. Also, Johnson did not respond
to our offer to discuss the draft report after we issued it in August. Johnson last met with
us to discuss our findings in March. Nonetheless, we believe we have fairly presented
Johnson's positions in this report and have modified the report where appropriate.

Management Comments. The technical challenges and solutions associated with the
request for equitable adjustment (RFEA) issues were worked through the International
Space Station (ISS) Program’s normal panels, boards, and other technical oversight
mechanisms. The process used to settle the RFEA issues served only to address the
necessary adjustments to contract value.

2. OIG Comments. Our report does not question the technical validity of the RFEA
issues but rather the lack of a price or cost analysis, which the Federal Acquisition
Regulation (FAR) requires in addition to a technical analysis. Johnson neither performed
an adequate price analysis nor adequately supported the waiver of the FAR requirement
to obtain certified cost or pricing data from Boeing. We believe that Johnson has
minimized the importance of properly determining RFEA costs.

Management Comments. A global settlement of RFEA issues would avoid not only the
significant costs associated with individual proposal settlement for each of the 38 issues,
but of equal or greater importance, the global settlement avoided the need to distract the
technical community with the extensive technical support that would have been required
during a very lengthy process to prepare, evaluate, and settle individual proposals.

3. OIG Comments. Johnson could not provide analytical support for its statement that
the global settlement avoided significant costs associated with individual proposal
settlements. Without such support and without a price or cost analysis, there is no
assurance NASA received a fair and reasonable price for the RFEA’s or saved costs on
the global settlement.




                                             41
Appendix H

Management Comments. The restructure settlement was fair and reasonable to both the
Government and the contractor. The restructure settlement successfully resolved the
majority of known contractual issues and facilitated the Program’s ability to keep its
focus on the challenging work ahead. The settlement was consistent with the Federal and
NASA procurement policy.

4. OIG Comments. While the restructuring may have facilitated the program’s ability
to focus on the challenging work ahead, Johnson could not provide evidence that the
settlement was fair and reasonable to both parties. However, we did determine that the
settlement did not comply with procurement regulations and that Johnson did not obtain
waivers for its deviations from those regulations.

Management Comments. The FAR cannot provide (and is not intended to provide)
specific coverage for every situation that might arise during the performance of a
contract. The FAR does not address what to do when, halfway through a major contract,
the incentive fee arrangement exceeds the range of incentive effectiveness. The FAR
likewise does not address how to pursue a global settlement of numerous RFEA issues in
an effective and efficient manner.

5. OIG Comments. We agree that the FAR does not address every situation that could
arise, but it does specify how to reach an agreement on a contract modification. The
FAR states that the contracting officer must at least perform a price analysis. Johnson
did not perform either a price or a cost analysis of the RFEA’s and did not adequately
support its waiver to obtain certified cost and pricing data. Johnson accepted Boeing’s
costs at face value based on the information in Boeing’s monthly reports. However,
Boeing’s cost estimates have been inadequate, resulting in about a $1 billion overrun
since contract inception.

Management Comments. Though not mentioned in the draft report, the applicable FAR
provisions include Part 1, which provides the guiding principles for the Federal
Acquisition System. Part 1 recognizes that the FAR does not address every contracting
situation and encourages the use of sound business judgment to manage risks and deliver
good value to the customer in a manner that is fair to both the Government and the
contractor.

6. OIG Comments. The general provisions in Part 1 of the FAR are not a license to
deviate without a waiver from specific provisions of other parts of the FAR, as discussed
in this report. Johnson was not able to demonstrate that the global settlement was fair to
the Government. We believe that Boeing benefited from the global settlement by
obtaining a better fee arrangement and by having its proposed costs accepted at face
value. We could not determine whether the Government received a fair deal.



                                            42
                                                                             Appendix H

Management Comments. The ISS contract is a cost-reimbursement-type contract. The
contractor is paid the actual cost incurred in performing the contract. There are contract
management provisions and processes to ensure that contractors are reimbursed only for
allowable costs.

7. OIG Comments. Management has a responsibility to perform a price or cost analysis
to determine whether costs are fair and reasonable. Johnson implies that Boeing should
be paid whatever amount it bills NASA and that the responsibility for determining
reasonableness belongs elsewhere, such as to the Defense Contract Audit Agency, which
is responsible for performing an audit of incurred costs at the end of the ISS contract.

Management Comments. As Boeing was identifying RFEA issues, it incorporated them
into its Performance Measurement System. The system was Boeing’s official cost and
schedule reporting tool that Boeing and the Government used to track actual cost and
schedule performance and that served as the starting point for periodic independent
Government projections of the expected cost to complete the contract. The system was
used to establish the cost settlement for the global settlement of RFEA’s in lieu of
receiving and negotiating individual proposals.

8. OIG Comments. As stated in Finding A, the ISS Program Office relied on Boeing’s
monthly Performance Measurement System Reports to determine whether the RFEA's
were fair and reasonable. However, those reports did not contain cost information on
individual RFEA’s that would be needed to support negotiations because Boeing’s
Performance Measurement System did not accumulate that information.

Management Comments. RFEA’s are unlike contract change orders where the work is
new, the technical approaches are sometimes undefined, and proposal fact-finding could
help define the technical approach. RFEA’s are cost growth issues on existing,
authorized work that is already being managed technically by standard program
management processes. The RFEA costs are already being managed as a subset of
managing the baseline work.

9. OIG Comments. If the RFEA’s are just cost growth on existing work already being
managed technically, then performing a price or cost analysis on the RFEA’s should have
been a simple task, should not have hampered negotiations, and would have shown
whether NASA was receiving a fair and reasonable price.

Management Comments. Johnson stated that neither the FAR nor the NASA FAR
Supplement addresses how “to re-incentivize a share-line cost incentive that is no longer
effective.”


Appendix H

                                            43
10. OIG Comments. We agree that neither the FAR nor the NASA FAR Supplement
specifically address how to provide a new incentive for the contractor. However, the
Government has a responsibility to seek solutions that are properly supported and that
ensure it receives a fair deal. Perhaps the Government and the contractor are expected to
make a fair deal at the beginning of the contract and live with it.

Management Comments. Johnson wanted a fee structure that would positively
motivate future cost performance and offer an opportunity for the contractor to earn a fair
return for high quality, cost-efficient performance for future work on this challenging
contract.

11. OIG Comments. Unfortunately, the new fee structure eliminated all negative
incentive after the restructuring by not requiring provisional fees to be repaid to NASA
for hardware failures on orbit. Such an arrangement does not protect the Government's
interests. Also, Johnson claims that the new structure allows for Boeing to potentially
lose more fee for poor performance. However, that outcome is improbable because
unlike the incentive fee evaluations, which were objective and directly affected by
overruns, the award fee evaluations are subjective.




                                            44
                        Appendix I. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight


NASA Centers

Acting Director, Lyndon B. Johnson Space Center
Chief Counsel, John F. Kennedy Space Center


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                          45
Appendix I

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science


Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          46
                NASA Assistant Inspector General for Audits
                             Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Restructuring of the International Space Station Contract

Report Number:                               Report Date:

          Circle the appropriate rating for the following statements.
                                            Strongly                                Strongly
                                            Agree      Agree   Neutral   Disagree   Disagree   N/A


1. The report was clear, readable, and         5         4       3          2          1       N/A

   logically organized.
2. The report was concise and to the           5         4       3          2          1       N/A

   point.
3. We effectively communicated the             5         4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient             5         4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

    Excellent           Fair
    Very Good           Poor
    Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?


Yes: ______                                 No: ______

Name: ___________________________

Telephone: _______________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Dennis E. Coldren, Program Director, Space Flight Audits

Len Diamond, Audit Program Manager

Loretta Garza, Auditor-in-Charge

Bret Skalsky, Auditor

Diane Frazier, Procurement Analyst, Inspections, Administrative Investigations, and
 Assessments

Nancy Cipolla, Report Process Manager

June Glisan, Program Assistant
